                                      Reference
                              OIG Document Control #96-18




    REINVENTION PROPOSALS
           PHASE III

         September 27, 1996




OFFICE OF INSPECTOR GENERAL
RAILROAD RETIREMENT BOARD
The Officeof Inspector General (OIG)has previously recommended
changes to the organizational structure of the Railroad Retirement Board
(RRB). The OIG provided proposals to assist the agency in effectively
utllizing the resources available to administer the provisions of the
Railroad Retirement Act (RRA)and the Railroad Unemployment
Insurance Act (RUlA).

Although the RRB made certain mod1flcations to the org~tional
structure, primarily within the Officeof Programs, the overall operating
environment has essentially remained unchanged. Agency management
must consider additional changes to improve the overall control
environment and increase the efficiency of the agency's operations. The
OIG believes the followingrecommendation will enable the agency to
focus its operations on core responsibilities and, as a result, provide the
best possible service to its customers.

The Board should identify programs and operations that duplicate
activities that are the primazy responsibility of the Social Security
Administration (SSA).These activities involve defining the TIer I benefits
of the RRAand differences between TIer 1and Social Security benefits.
The Board should become proactive in supporting efforts to transfer
these programs to the SSA over a three year period.

Many of the recurring difficulties the RRB encounters in processing
benefits arise because of the necessary coordination with the Social
Security Administration concerning historical employment coverage.
earnings history, post retirement benefit adjustments and related issues.
The continued decline in railroad workers covered by the RRA and the
projected decline in annuitants suggest this is an appropriate time to
consider changes to the administrative processes used to provide the
benefits of each program..
Cost savings would be achieved through the elimination of coordination
efforts and maintenance of dual adminlstratlve structures to achieve the
same objective. Customer satisfaction and service would be enhanced
because benefit claims ~ould be settled faster, and the need for two
separate agencies to coordinate the payment of entitlements under the
same benefit structure would be, eliminated. The marginal cost of
including the Tier I benefits in the SSA processing systems should be
negligible relative to the number of benefits currently being processed for
all SSA reCipients.

Future coordination efforts between the agencies will require additional
resources. particularly as new systems projects are implemented in each
agency. For example, the RRB has begun its Year 2000 initiative to
accommodate computer systems changes to support the calculation of
date sensitive information in the next centwy. SSA is also undertaking
its Title II redesign effort which will impact how it pays old-age, survivors
and disability insurance benefits. The OIG believes that significant
efficiency improvements can be achieved by requesting enabling
legislation that would allow for the transfer of certain program activities
to SSA.



The RRB was established in 1934 to provide specific retirement plan
seIVices to the railroad industry. At that time, there was minimal pension
coverage in the country and railroads were the dominant transportation
mode. The Congress recognized the desirability of a national program of
retirement benefits covering railroad workers through the collective
bargaining process that was applicable to all labor organizations
represented in the industry.

Important considerations at the inception of the railroad retirement system
were the desire to provide for Jmmediate pensions, recognition of prior
railroad service and recognition of service with all employers in the industry.
These features were not considered in the initial drafting of the Social
Security Act. The initial Railroad Retirement Act passed in 1934 preceded
the passage of the Social Securlty Act in 1935 which excluded raJlroad .
employment from coverage. The Railroad Retirement Act of 1937 continued
the independence of the system from Social Security.
From the pensioners' standpoint, the separation of the two programs
resulted in larger, immediate benefits. From the employers' perspective, the
advantages included a single benefit structure and the opportunity to
transfer PenSions which the railroads had been paying from operating funds
to the RRB. It was also considered beneficial to have a retirement system
that would encourage retirement by older workers to allow for the
advancement and hiring of younger employees. The initial funding for the
RRA was derived from a payroll tax on employees and employers.

The later evolution of the RRB's responsibility With resPeCt to the retirement
program was largely due to the integration of Social SecuI1ty features into
the structure of the railroad pension plan. Legislation to remedy recuning
financial problems, the complexity of the retirement provisions due to
coverage under both systems, the effect of Windfall benefits and the addition
of the unemployment and sickness insurance programs expanded the role
of the Federal government in the administration of raUroad benefit plans.

The first general revenue support provided to the system,.which occurred in
 1944, funded retirement credits earned by covered employees who had
served in the military. Amendments to the RRA in 1951 provided significant
increases in the pensions payable to railroad retirees on a level consistent
with those granted to Social securtty beneficiaries. These amendments also
introduced the concept of the Financial Interchange (FI)which required
Social securtty to measure its financial status as if the SSA had always
covered railroad workers. SSA was also required to arrange for a transfer
mechanism between its trust funds and the RRB to reflect the financial
consequence of covering the railroad industIy employees.

Legislation enacted in 1974 removed many differences that existed· between
benefits provided under RRA and SSA through the establishment of a two-
tiered structure of railroad retirement benefits. This important legislation
recognized two separate components of the railroad retirement plan and
required the ongoing benefit coordination between the RRB and the SSA.
TIer I was essentially deSigned to duplicate the SSA benefits although
certain differences between the two programs still remain. TIer n was
designed to resemble a private sector retirement plan similar to those
adopted under multi-employer arrangements in other industdes~
The 1974 legislation also ended the el1gtbllityfor Windfall benefits. Such
benefits were called the '"windfall benefits" because individuals who had
been covered by both the RRA and the Social Security Act received
proportionately higher benefits than if they had been covered by only one of
the programs for their entire career.

The most s1gnifi.cantlegislative changes following the 1974 amendments
which affect the interaction of the RRB and SSA and the·use offederal
funding came in 1983. Pension benefits were subjected to federal income
taxation and the revenues received transferred to the RRB trust funds.
Revenues derived from the taxation of TIer I benefits were transferred to the
RRB as a permanent funding source. Initially, the transfer of ftmds
generated through the taxation of TIer II benefits was to be temporary
through 1988. However, subsequent legfslation extended the transfer and
later made it a pennanent transfer.




The addition of Social Security features and the financing proVisions which
accompanied them increased the administrative responsibilities required to
provide RRAbenefits. At the same time the administration becaine more
complex. the rallroad industIy experienced a maJor decrease in the number
of workers employed. The corresponding reduction in the payroll base
resulted in lower tax revenues and diminished theRRB's ability to pay
benefits. The reduction in the number of workers had been occun1ng atthe
same time as the number ofbeneficiaIies had grown and Hfe expectaI1cy
was increasing. Actuarial projections made by the Board do not predict a
significant change in the employment pattern, even under the most
favorable assumptions.

The demographic differences between the population covered by Social
Securtty and Railroad Retirement was significant at the time the financial
interchange was introduced. The number of workers covered by SSA was
expanding faster than the growth in benefit recipients. In the case of the
RRB the number of active employees covered by the system has declined
from a peak of 1.7 million in 1944-45 to the CUITentlevel of approximately
265,000. Conversely, the number of retirees and beneficiaries reached its
peak of nearly 1.1 million in 1975 and although declining still remains at
nearly 800.000 at the close of FY 1995. The most recent actuarlal valuation
projects that the number of annuitants will decline by nearly 20'16 over the
next five years.
The ratio of covered workers to beneficiaries in 1950 was approximately 3 to
1. Currently this ratio is reversed as there are now nearly three
beneficiaries for each worker. The following graph demonstrates how the
proportions have shifted. (Number of participants is shown in the
thousands.)




                                 1970          1975         1990     1995
                                        YEAR                 .BENEFICIARIES
                                                             .EMPLOYEES




The railroad retirement system was designed to be primarily a "pay as you
go" type of benefit program. This means that benefits are paid from a payroll
tax on current employees and their employers. A pay as you go system will
continue to be effective only if the number of current workers increases or
revenues from contributions and investments outpace the relative growth in
the payment of retirement benefits. Both Tier I and Tier II benefits are
financed by the pay as you go method, and as stated above, the number of
active workers has declined faster than the decline in the number of people
receiving benefits.
The 1974 legislative changes to create a two-tiered system were based upon
the findings of the Commission on Railroad Retirement, established by Jaw
in 1970. As noted in its 1972 report, the Commission was directed to
••...study the railroad retirement system and recommend changes in it to
provide adequate levels ofbenetlts on an actuarially sound basis." In
addition, the Commission was directed to review the relationship to Social
Security and changes in the financing of the system.

In recommending the two-tiered benefit structure, the CoIIlIllisSion noted
that the TIer II portion should be structured to serve its members as do
private plans in other industries. The two most notable exceptions between
the private sector pension plans and TIer II benefits are:

        1.)   Prtvate plans must provide advance funding for accrued
              liabilities whereas TIer II is on a pay as you go basis, and

        2.) Prtvate defined benefit plans must have plan tennination
            insurance which provides coverage through the Pension
            Benefit Guaranty Corporation (pBGe).

Advanced funding for accrued liabilities generally requires payments over a
period of up to 30 years. The RRB prepares an estimate of the unfunded
accrued liability in its trienn1al actuarial valuation. The most recent
actuarial valuation indicated that the present value of the unfunded accrued
liability is $37.6 billion. Annual payments of approximately $ 2.6 billion
would be required to amortize this unfunded liability over the next 30 years.

In addition, coverage by the PBGC would require the payment of annual
premiums based upon the number of particiPants. Currently the premiums
are $2.60 and $19.00 per participant for multi-employer and single
employer plans, respectively. Additional premiums may be required for
single employer plans if they are underfunded. At the multi-employer rate
premiums of approx:Jmately $2.8 mllllon would be required, prestunabJ¥
from additional taxes on employees and employers. The paGe would also
assess a withdrawalliabllity penalty for those employers wishfug to cease
participation in a multi-employer arrangement.
The impact of the coordination between the SSA and the RRB is illustrated
by the level of financial activity occun1ng between the two agendes.
Revenues related to Ute provision of SocialSecurtty benefits or its equivalent
represented over 60% of the RRB's total receipts over the past three years.
(Dollar amounts in the chart below are shown in millions.)


                                           ~             .ll!a4       .llm
 Tier I Taxes (equivalent of Social      $1,874.4      $1,812.4      $1.800.6
 Security tax)
 Flnancial Interchange                    3,751.6       3.324.6      3.213.2
 SSAReimbursement                         1·009.3       1.085.3      1.069.1
 Revenues Related to SSA                $ 6,725.3     $ 6.222.3     $6,082.!:}
 Total RRB Revenues                     $10,836.7     $10,266.0     $9,733.8
 % of Total                               62.000/&      60.61%       62.49%


The introduction of the Tier I benefit structure in 1974 removed many
historical program differences relative to Social Security. The coordination
of Tier I benefits and SSA has, however, created administrative complexities.
Among the features requiring continuous coordination are determining the
amount of benefits to be paid and then allocating the total between th~ two
programs. The allocation feature must again be monitored when cost of
living increases become effective.

The separate tax rates and wage base against which the rates are applied
require that the RRB maintain separate funds .and accounting records for
TIer I and Tier II collections and disbursements. The information required
for Tier I mirrors that required for SSA and as such represents a duplication
of effort and produces no real benefit.

RRA provisions require that a comparison be made to ensure that an
individual covered under the RRA receives at least as much as an individual
who had comparable earnings but was covered by Social Security.·
Coordination problems for benefits paid by SSA and the RRB resulted in the
overpayment of$14.7 million in benefits durlng the FY 1995 by the RRB.
The need to control exposure to overpayments, detennine the extent of any
overpayments. adjust future pensions and ensure collections adds
administrative expense to the RRB. and, therefore. represent an
unnecessmy cost to the trust funds.
Modifications to the administrative systems for recording data and
transactions in the next century will require additional coordination and
expense. Any major changes made to the structure of the Social Securlty
program, such as the estabUshment of individual partidpant investment
accounts, will add even greater complexity to the recordkeeptng
requirements and increase the coordination problems between the agendes.



FINANCIAL·INTERCHANQE

In addition to the administrative burden required by the coordination of
benefit payments, the RRB and SSA are also required to resolve program
financing issues through an intricate process called the Financial
Interchange (Fl).The intent of this process is to place the SSA trust funds in
the same financial condition as iraIl railroad workers had been covered
under SSA. If the amount of benefits SSA would have paid exceeds the
amount of TIer I taxes collected the transfer is made to the RRB. If taxes
exceeded benefits, the transfer is made to the SSA trust fund.

The FI was initially introduced in 1951 and since 1958, the result has been
a transfer of funds to the RRB. The total level of ftnandal activity between
the RRB and the SSA represented over 62% of the RRB's receipts for fiscal
year 1995. The net transfer to the RRB for the FI alone was $3.8 billion
which represented approximately 35% of total receipts. Activity to separate
the financial positions of the respective trust funds produces no incremental
benefit to the pension recipient or to the taxpayers. RRB transactions
related to the FI are tracked through the Social Security Equivalent Benefit
Account which was established in 1984 to identify the sources of funding
and benefit payments. Previously, all activity was handled through the
Railroad Retirement Account.

The inability of the RRB to accurately estimate the amount of the FI also
precludes issuance of timely and accurate ftnandal statements; an
extensive amount of estimating is required to determine the net transfer
amount. The current similarities in the respective programs and the
necessity for ongoing coordination of benefits and sources of financing
indicate that an assessment of the roles of each agency in the
administration of the retirement benefits should be initiated.
The complexity of the FI activity recently became more when the Chief
Financial Officer and the Chief Actuary of the RRB proposed that nearly
$800 million including interest should be transferred to the Railro~d
Retirement (RR)Account from the Social Security Equivalent Benefit
(SSEB) Account. According to their analysis the SSEB Account has
accumulated a balance in excess of $2 billion for two reasons:

      Elr§i, the SSA trust funds transfer to the RRB an amount equal
      to what the SSA benefits would have been even though the RRB
      may not provide similar benefits under the Tier I program. As an
      example. Tier I does not pay benefits to the children of living
      retirees which will cause a build-up in the SSEB account:

      Second, the RRB prepares estimates of the benefits which SSA
      will reimburse and charges these amounts to the SSEB
      account. The actual reimbursements from the SSA trust funds
      are determined through the FI. Over the years the RRB has not.
      adjusted the benefit charges to the final amount of the FI
      settlement. The excess of the reimbursed benefit amounts over the
      estimates is approximately $600 million since 1984.·The additional
      $200 million represents an accrual for interest.

The analysis supporting the proposed transfer of funds. concluded that
the balance of the RR Account was not to be sIgnificantly affected by the
creation of the SSEB Account. As a result the RR Account had been
overcharged.

These adjustments were not made on a more timely basis which suggests
that (1) intertm procedures have been less than adequate to ensure
appropriate recording of benefit charges. or (2) that the procedures were
not understood. While this adjustment does not reflect a loss of funds.
the allocation of trust assets can impact the projections related to the
financial stability of the Railroad Retirement Account.
 In 1966, theRRB was authorized to select a separate carrier to
 administer the Medicare Part B program for railroad beneficiaries; in
 1972, the agency's authority to contract with a carrier was added to
 section 1842(g) of the Social Security Act. Numerous proposals have
 subsequently been made to eliminate the agency's role in processing
 Medicare claims. In 1993. the National Performance Review
 recommended the repeal of the authority and the transfer of the railroad
 Medicare program to contracts negotiated by the Health Care Financing
 Administration (HCFA). In 1995, HCFAagain proposed eliminating the
.RRB's independent authority over railroad retirees' Medicare Part B
 claims.

RRB annuitants and their representatives have strongly opposed every
motion to transfer the administration of this program to HCFA
Proponents of the agency's Medicare program cite many factors in
support of the separate RRB contractor: (1) the processing cost per claim
is less than HCFA contractors' cost; (2)the processing accuracy rate is
higher; (3) the timeliness of processing is faster; and (4) better quality
service is provided to railroad beneficiaries. In fact, the railroad
community has taken the position that elimination of the RRB's Medicare
authority would undermine the integrity of the railroad retirement
system.

The OIG supports the deferral of any change in the RRB's current
authority to administer the Medicare Part B program for the following
reasons:

      The Health Insurance PortablUty and AccountabWty Act of
      l~                                                  .

      The Act contains several provisions that may impact the
      administration of Medicare Part B by the RRB. The Act stipulates
      that the agency has the authority to establish regulations to
      directly impose monetary penalties and assessments on health
      care providers who submit prohibited claims or seek fraudulent
      payment under the Medicare program.

      The Act also potentially provides additional funding to the Office of
      Inspector General (OIG)for the investigation. prosecution. audit or
      evaluation of health care fraud and abuse. The OIG currently has
      127 open Medicare fraud cases representing $26 mUllon in
      potential recoveries to the HCFAtrust fund.
      Proposed Amendments to HCFA'Procedures

      The Health Care Financing Administration plans to amend its
      current procedures for Medicare clabns contracting. As a result.
      any modifications to the RRB authority should be postponed until
      HCFA has made a final decision on any changes.



      A difference of opinion exists concerning any cost advantage to
      changing the contracting authority at this time. The existence of a
      single carner for the railroad community has proven effective in
      terms of customer service. The RRB's beneficiaries have repeatedly
      expressed a high level of satisfaction with the current carrier.

      The existence of a separate carrier for Railroad Medicare does not
      require the expenditure of RRB trust funds. Funding is provided
      through the Financial Interchange and produces revenue for the
      agency.

UNEMPLOYMENT AND        SICKNESS    BENEFITS     .

The RUIAwas origi.na1lyenacted in 1938 to provide benefits to unemployed
railroad workers. Many of the workers were denied benefits by individual
states due to Jurtsdictionallssues because many railroad operations crossed
state lines. Sickness benefits were added to the program in 1946.

Several unique operating features of the RUIAbenefit programs support
retention of administration Withthe RRBor that no action with respect to
these programs is required:

      1. The two programs of sickness and unemployment insurance are
      combined for purposes of financing. and are experience rated
      costs are generally matched to employers with the highest
      utilization.

      2. While state programs are based upon periods of weekly
      unemployment, the RUIAbenefit program considers days of
      unemployment in a benefit period. 1i"ansfening this type
      of program to the states would require.extensive modification to
      existing administrative processes.
       3. Program expenses for FY 1995 totaled $80.3 million. Therefore,
       administrative improvements cannot provide the type of savings
       which can be achieved by concentrating on opportunities within the
       retirement program.




The OIG reconunends that the Board propose the type, of enabling
legislation that would facilitate the transfer of the RRB's TIer I responsibility
to SSA over the next three years. The transfer of the TIer I program would
reduce the overall cost of providing the same level of income security by
eliminating the duplicate administrative mechanisms, including the
financial interchange process, and would m1nJmize the need for continuous
benefit coordination. The transfer of the resPeCtive program responsibilities
would also significantly reduce the involvement of the'RRB in providing
services more typically considered to be inherently governmental functions.

Attempts have been made in the PaSt to end Federal administration of
retirement benefits for a siIigIe indUStry. In particular, the role of the Federal
government in administering two dupllcative programs (RRAand SSA)
which have the same intended outcome has been questioned several tiInes.
The current demographic patterns emerging wJth!n the industry and the
employment ceilings projected for the RRB require substantial changes
within the RRB and suggest that these proposals be revisited.




nus proposal will impact the railroad beneficiaries and the government as a
whole in two main areas. It will enhance customer service to the railroad
beneficiaries and will reduce the overall cost of providing the same level of
benefits. The merger orTIer I and Social Securtty programs would enhance
service to the program beneficiaries through more timely and accurate
payment of initial benefits. The need for coordinating the entitlementeamed
under SSA for offset to the TIer I payment would be eliminated. The
coordination on cost of living increases for those receiving both SSA and TIer
I payments would no longer be required. The end result is greater efficiency
in terms of the product delivered to the customer as well as cost savings to
the taxpayers.
One measure of efficiency for a benefit program is a comparison of
administrative costs to similar programs. The financial· statements of the
RRBindicated that the ratio of administrative expenses to benefit payments
for the Railroad Retirement and Survivor Program was .9% over the past
three years. Over the same period SSA has reported a decline in its ratio of
expense to benefits from .SOk to .6% in the retirement program. The
productivity gain by transfemng the TIer I benefits to SSA. based on benefits
paid from the Social Securlty Equivalent Benefit account during the last
fiscal year. would be approximately $ 14.6 million.

Transfernng the TIer I program administration to SSA would also enable the
RRB to examine its service deliveI)' process. A large part of the initial
application processing would be eltmfnated since only the TIer II portion of
an annuity would have to be processed. The agency could determine the
advantages of locating the field seIVice representatives in SSA offices.
Having each program serviced at the same location would result in broader
geographic coverage and achieve cost savings for office space and
equipment.

Further refinements could also be considered such as direct applications
from the larger employers or by initiating the application process through
automated voice response systems. The technological advantages of using
the telephone service deliveI)' system of the SSA could be expanded to
include RRB benefietarles. This should also result in savings because the
development of a new system would not be acquired.

The overall coordination with SSA represents approximately two-thirds of
the RRB's operating revenue. It is reasonable to expect that staff reductions
of 500 positions should be achievable by the transfer of program.
responsibillties. The total reduction in expense related to the operations
should approach $ 30 million annually. Comparable savings should also be
expected in indirect costs such as office space and office equipment
Reduced audit and oversight activity within the OIG is also· expected since
the scope of program operations would be simplified.

Providing a three year period to complete the transfers will allow sufficient
time for coordinated systems planning. determination of the most effective
manner of resolving program differences and securing the necessaI)'
enabling legislation. The objective for transferring activity to SSA should be
to include all programs that SSA would nonnally provide Without
diminishing the benefits protection to which railroad Workers are entitled. In
addition to the transfer of program responsibilities, the agency should
anticipate that the employees currently involved in the TIer I program
administered by the RRB would also be transferred to the SSA.
Transferring the. affected employees would provide an effective transition
team knowledgeable in both programs who could be absorbed within the
larger organizations. As a result. the RRB could avoid incurring the costs
associated with a reduction in force. SSA could more easily absorb staff
reductions through atbition and retirement incentives than a smaller
agency like the RRB.

During the transition phase. an analys.ts of specific program differences
between SSA and the TIer I program would be necessary. As an example of
program differences to be resolved. Social Security retirement benefits
cannot begin until age 62 but TIer I RRA benefits can begin at age 60 with
30 years of service. All program differences must be identified to determine
the equitable treatment of program beneficiaries as well as the financial and
funding implications.                                                   .

By providing sufficient time for the transfer of responsibilities. any
necessary benefit modifications could be reviewed by all interested parties.
Changes in benefit provisions, where necessary, could be implemented
gradually With appropriate grandfathering provisions to protect the existing
annuitants and beneficiaries.

The removal of the TIer I administration would substantially reduce the size
of the RRB and enable the agency to focus on program activities that
directly affect program beneficiaries rather than coordination efforts which
affect sources of a benefit rather t:harl the actual entitlement. Program
simplification should enable the RRB to simplify its organizational structure
as fewer positions will be required to support the coordination of existing
programs.

The separation of the TIer I responsibilities from the RRB will also elimJnate
the need to maintain the SSEB Account. The financial statements of the
RRB would no longer reflect the balance of theSSEB Account or the income
derived from its investments. Currentlegi.slatlon also allows for the transfer .
of SSEB funds to pay railroad retirement benefits if the funding of the
Railroad Retftement Account is inadequate to meet its benefit obligations in
the future. Funds transferred to the Railroad Retirement Account would not
have to be repaid. The Chief Actuary has reported that. even under the most
pessimistic employment assumptions. no cash flow problems are expected
for the next 20 years.
                              CONCLUSION

The type of initiatives recommended by the NPR suggest major changes in
the type of services proVided by government agencies and the most emcient
method for providing needed services. The OIG believes the preceding
proposals are compatible with these objectives and should be glven
immediate consideration. Combining the TIer Iprogram with SSA will.also
provide greater career opportunities to the employees of the RRB because
                                             to
larger agency organiZations will be more likely absorb reductions in force
through attrition .and retirement incentives.
This document was scanned for electronic
      distribution on April 20, 2009.

     Inquiries should be directed to:

       Office of Inspector General
     U.S. Railroad Retirement Board
            844 N. Rush Street
          Chicago, Illinois 60611

        Telephone: 312-751-4690
